t

1

i

Jj

cr~.

■

/?£>

:k3)kJj Jl @

IN THE SUPREME COURT OF THE UNITED STATES

“IN RE [THERESAS. ROMAINJ“ PETITIO
dba Alternative Homecare Co.
'

ER J

J: 1 I

M
\

JJ ■! i

V.

i;

ON PETITION FOR WRIT OF HABEAS CORPUS TO
THE APPEALS COURT FOR THE STATE OF NEW YORK
FILED
OCT 2 3 2020

ON PETITION FOR A WRIT OF HABEAS CORPUS

Theresa S, Remain
P.O.Box 392
Marlboro NY 12542
deball@ mail.eom

QUESTION PRESENTED:
1. Whether a void order within the meaning of the Constitution can
automatically restrain a petition to Certiorari ?
2. Whether a mob trial process causing serious delay, expenses, complexity can
interferes with a States interest in the finality of its legal process?.
3. Whether Constitutional doctrine of fairness can detain an individual
outside of the Court absent the 6th Amendment?

(i)

PARIES TO THE PROCEEDING:
All Parties do not appear in the caption of the case on the cover
page. A list of parties to the proceeding in the court whose judg­
ment is the subject of this petition are as follows:
William P. Barr (Attorney General United States)
Andrew M. Cuomo (Governor State of New York)
Letitia James (Attorney General New York)
Hon. Thomas A. Breslirt, (Chief Administrative Judge NY State)
Hon. Michael V. Coccoma(Former Deputy Chief Admin. Judge NY)
Hon. Karen K. Peters^ (Former Justice Appellate 3rd Dept. NY)
Justice Randall T. Eng (Former justice Appellate 2nd Dept. NY)
Hon. Maria G. Rosa,(Dutchess Supreme Court, Poughkeepsie NY)
Clinton G. Johnson Esq (Ulster County Attorney)
Hon. Kimberly O'Connor (Supreme Court Justice Albany NY)
Eric T. Schneiderman (Former Att. General State of New York,)
Hon. Lisa M. Fisher Ulster County Supreme Court NY)
Hon. Henry F. Zwack (Former Supreme Court Jms&ce NY)
Hon. Christopher E. Cahill (Ulster County Supreme Court)
Wells Fargo Bank
Wilmington Savings fund Society(Bank Wilmington Del
Christina Trust/ BCAT 2015-13BTT( Sub of Wilmington Bank)
Mark R. Knuckles Esq. (Knuckles Komoisinski & Manfro LLP)
(ii)

Jean Strickland Esq. (Solicitor General NY)
John G. Rusk Esq.(Law Firm Rusk, Martuscello et al)
Zainab Chaudhry Esq. (Solicitor General NY)

RESPONDENTS ON STATE COURT CAPTION:
HON. KIMBERLY O’CONNOR (original and individual capacity)
MICHAEL IAPOCE Esq. (Commissioner DSS NY)
CAROL PRESSMAN Esq.(Appellate Division 3rd department)
RACHAEL L.COVELL Esq.(
TRAVIS DAVIS RN (Sole Propritor Blue Haven Family Type Home)
PATRICIA JELACIC Esq.(Former Commissioner DSS)
CATHERINE CHARUK Esq,(Sole Propritor Kingston NY)
DEBORAH GREENFIELD (Supervisor Case Worker Albany NY)
RICHARD PICHI (Supervisor Case Worker Albany NY)
SUZANNE BOTTIGLIERO (Former Case Worker Supervisor Kingston NY)
WINNIE MC NELIS (Former Case Worker DSS Kingston NY)
PATRICIA SANGI (Former Case Worker DSS Kingston NY)
MELINDA ROBINSON (Case Worker DSS Kingston NY)
ROBYN RANDZIN (Former Case worker DSS Kingston NY)
DANIEL MARTUSCELLO Esq.(Law Firm Rusk, Martuscello et al)
DEPARTMENT OF SOCIAL SERVICE (DSS) Via Michael Iapoce
(iii)

RESPONDENTS BY THEIR REPRESENTATIVE:
William P. Barr (Attorney General United States of America)
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington DC 20530-0001
Andrew M. Cuomo (Governor New York State)
NYS State Capitol Building
Albany, NY. 12224
518- 474- 8390
Letitia James (Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
Hon. Thomas A. Breslin(Chief Administrative Judge NY State)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Hon. Michael V. Coccoma (Former Administrative Judge NY State)
Supreme Court Chambers
Ostego County Office Bid.
197 main Street, Cooperstown NY. 13326
607-322-3165
Hon. Karen K. Peters (Commissioner on Justice for Minority)
2500 Pond View Suite 210
Castleton on -the Hudson, NY 12033
518-285-8300
Justice Randall T. Eng (Former Supreme Court Judge 2Dd Dept.)
990 Stewart Ave, Garden City NY 11530
516-741-6565
Maria G. Rosa (Supreme Court judge Poughkeepsie NY)
10 Market street, Poughkeepsie NY 12601
Clinton G, Johnson Esq, (Ulster County Attorney Kingston NY)
P.O.Box 1800, Kingston, NY 12402
Zainab A. Chaudhry Esq.(Attorney General New York State)
Robert Abrams Building for Law and Justice
State Street, Albany NY. 12223
(iv)
For:

•

HON. KIMBERLY O’CONNOR

•

CAROL PRESSMAN Esq.

Jean L. Strickland Esq. (Attorney General State of New York)
One civic Center Plaza, snit 401
Poughkeepsie, NY 12601
For
• DEBORAH GREENFIELD (Case Worker)
•

RICHARD PICHI (Case worker)

Robert D. Cook Esq.
Cook , Netter, Cloonan, Kurtz and Murphy P.C
85 Main Street
C/O P.0 Box 3939
Kingston NY. 12402 845-943-2498
For
MICHAEL IAPOCE Esq.
PATRICIA JELACIC Esq.
SUZANNE BOTTIGLJERO (Former Supervisor Case Worker)
MELINDA ROBINSON (Case Worker)
ROBYN RANDZIN (Former Case Worker)
WINNIE MC NELIS (Former Case Worker)
PATRICIA SANGI (Former Case Worker)
Joshua Koplovitz Esq.
P.O.Box 3268
Kingston NY. 12402
845-331-0100
For:
• RACHEL COVELL Esq.
CATHERINE CHARUK Esq. (Pro Se)
P.O.Box 4011 Kingston, NY. 12402
845-334-9775

(v)

Goldberg Segalla LLP
11 Marline Ave, Suite 750
White Plains NY. 10606 12566
914-798-5400
For:
•

DANIEL MARTUSCELLO Esq.

TRAVIS DAVIS RN (UN Represented) (Pro se)
121 Stein Road
Pine Bush, NY. 12566 845-744-5113
Department of Social Services (DSS) by Michael lapoee (Commissioner)
Wells Fargo Home Mortgage by Charlie Scharf (CEO) et ai
Head Quarters
420 Montgomery Street
San Francisco, California 94104
Wilmington Savings Fund Society et al
C/O Selene Finance
9990 Richmond Ave
Houston, TX. 77042
John Rusk Esq. (Law Firm Sole Propritor, Rusk, Martuscello)
(Un represented)
255 Fair Street
Kingston, NY 12401 845-331-4100
United Parcel Service (UPS) et al
Cooperate Office, 55 Glenlake Pk Way N.E.
Atlanta GA. 30328
Microsoft Corporation et al by Satya Nadella (CEO)
One Microsoft Way, Redmond W.A. 98052
Google LLC et al
Cooperate Head quaters C/O Alphabet Inc.
1600 Amphitheatre PK Way
Mountain View CA. 94043
Gross Polowy LLC et al by Sarah K. Hyman Esq/B. Biodonde Esq.
1775 Wherle Drive Suite 100
Williamsville NY 14221
(vi)

Knuckles Komoisinski & Manfro LLP et al by Mark Knuckles Esq.
565 Taxer Road Suit 590
Elmsford New York
Attn: Maxium Smelyanski Esq.
Straight Talk Inc. et al by Eduardo Diaz Corona (Ceo)
9700 N.W. 112th Ave.
Miami, FL. 33178
Attn: Executive resolution Department
John Doe and Jane Doe et al
COURT JUDGMENT TO BE REVIEWED DEEMED PARTY:
•

Hon. Henry F. Zwack (Supreme Court)

•

Hon. Christopher E. Cahill (Supreme Court)

•

Hon. Lisa M. Fisher (Ulster County Court Foeclosure)

•

Hon. Michael Gaser (Justice Court Marlboro NY)
CASES IN OTHER COURTS THAT ARE RELATED:

•

Romain v. Department Social Service(Article 78)(1997)

•

Romain v. Charuk Esq. (2006) Index No. 05-944

♦

Romain v. Charuk Esq. (2007)

•

Department of Social Service v. Romain (2008 & 2009) 08-5612 &8-6430
Romain v. Department of Social Service(by Michael Iapocee
/Commissioner)(2008 & 2009) RJI55-08-02160 & 55-08-02486

•

Federal Bankruptcy Court(Poughkeepsie NY) Romain (2013) Case No.13-36786

•

Wells fargo v. Romain (2009, 2010 & 2015) Index No. 09-1675

•

Wilmington Saving Fund Society v.Romain (2015 & 2017)
Index No 2015-1301 and Justice Court No. 18020063
(vii)

•

Key Bank v. Romain (2009 & 2017) Index No. 09-1979 (4/2/2009)
TABLE OF CONTENTS:
Page No.
1-2

Opinion Below
Jurisdiction.

2

Statement.

3

Conclusion.

15 -16
INDEXES TO APPENDIXES:

Appendix A

Hon. O'Connor Decision and Order

Appendix B

Decision of State Court of Appeals

Appendix C

Decision of Appellate Department

Appendix D

Decision and Order Appellate Department

Appendix E

Decision of State Supreme Court

Appendx

F

Affirmation in Opposition (Chaudhry)

Appendix G

Notice of Entry (Chaudhry)

Appendix H

Cover letter Petition (Smith)

Appendix

I

Certiorari to U.S. Supreme Court Seizure

Appendix

J

Sheriffs Eviction

Appendix K

Attorney Pikin et al

Appendix L

Michael Iapoce Answer to the Court

Appendix M

Carol Pressman Investigative Report

Appendix N

Intervention for dicipline and Disbarrment

Appendix O

TABLE OF AUTHORITIES:
PAGE NO.

CITED
Ackerman v. United States 340 U.S. 193 (1950)

6

Campbell v. Wash Dept of Soe. & Health Servs. F. 3D (9th Cir. 2011)....7
Delta Water agency v. United States 306 F. 3D (9th Cir. 2002

7

Exp arte Grossman 267 U.S. 87 (1925

5
(viii)

Felker v. Turpin 518 U.S. 651 (1996)
Gonzalez v. Crosby 545 U.S. 524, 535 (2005).............
Hope v Pelzer 536, U.s. 730, 741 (2002)

9
,.,.6

10

Houston v. Lack 487 U.S. 266,271-276 (1988)

6

Id at 247 U.S. 419 U.S. 277 (1923)

5

Lilijeberg 486 U.S. At 863

6

Lujan v. Wild Life 504 U.S. 555, 560 (1992)

6

Kennedy v. City of Ridgefield 439, F 3d 1055, 106 (9th Cir 2006

8

Kwong Hai Chew v. Golding 344 U.S, 590 (1953)

.4

Lujan v. Na'l Wildlife Fed 497 U.S. 871, 882 (1990)

8

Lynn v. Robert 03-3464 (D. Kan, Nov 1, 2005) (10th Cir. ).(2G06)

5

Lynn v. Anderson -varella 46 06-(D. Kan, Jan 26, 2007)

5

Marquette Corp v. Priester 234 F. 799 (E.D.S.C. 1964)

5

Oxford Plastics v. Goodson, 74 N.C. App. 256, 259— 60 (1985)

6

Pauluk v. Savage 836 F. 3D 1117, 1125 (9th Cir 2016)

.8

Pauluk 836 F. 3D at 1125.

8

Pendergast v. United States 317 U.S. 412 (1943

5

Penilla v. City of Huntington Parkll5 F 3d 707, 709 (9th Cir. 1997)..... 7
Pierce Klapprott v. United States 335 U.S. 601(1949).

6

Pierce v. Cook & Co. Inc 518 F. 2D 720, 722 (10th Cir. 1975)

6

Radack v. Norwegian American line 318 F. 2D 538, (2nd Cir. 1963)..... 6
Toledo News Paper Co. v. United States Supra at 247 U.S. 422

5

(ix)

42 U.S.C.§ 1981 A (b) (1)

12

United States v. Smith 331, U.S. 469, 475 (1947)

9

Weese v. Sehukman, 98 F. 3D 542, 552 (10 cir. 1996)

5

542 U.S. 55, 57 -58 (2004)......
[297 U.S. 288,319]

.......7

10

CONSTITUTION AND STATUTES:
Pub law 112-63 Dec. 7, 2011

3

All Writs Act §1651

9

Artl. S9. C2.1 Writ of Habeas Corpus

8

Article 1, Section 9, Clause 2

8

Article 111, (2),„.„„
Congress Pub law 112-63 Dec. 7, 2011

. ...9

1

(5th, 6th and 14tb Amendment.

5

Section 2000 e -17 (section 718).

4

Section 2244(b) (3)

9

Sections 2244 (b) 91) and (2).............

. ........ 9

2000 e -3 (section 704) (a) discrimination.

3

Rule 60 (b) (4)

5

Rule 60 (b), (6

6

(xi)

IN THE SUPREME COURT OF THE UNITED STATES

“ IN RE [THERESA S. ROMAIN] “ PETITIONER
dba Alternative Home care Co.
ON PETITION FOR WRIT OF HABEAS CORPUS
COURT OF APPEALS FOR THE STATE OF NEW YORK
Theresa Remain on behalf of her self respectfully petitions
for Writ of Habeas Corpus to the Court of the United States
to review the decision made by the highest court of New York
the Court of Appeals. In Application made to review the conditional
restraint that the State of New York has applied to Petitioner
after placing Petitioner in danger with the application of fraudulent
documentation causing a miscarriage of justice, inhibiting the
liberty to live a free and prosperous life.
-

The application of a Void Order to chill the 1st Amendment under the redress of

grievances absent an “Open Court”
OPINION BELOW;
The opinion rest on the orders finally appealed from did not finally
determines the action within the meaning of the Constitution. It is
proper that the Supreme Court of the United States clarifies the
order in the meaning of the Constitution and grant this Petitioner
judgment.
Petitioner has relied upon:
(1) Hon. Kimberly A. O'Connor's Decision and Order dated March
13, 2009 indicating that “according to the Department the State
of New York is in the process of revoking her license based upon
issues, other than those relating to care. > inhibiting liberty
Theresa has come to believe that Discrimination can be a factor (Mob Domination
hindering the finality of a legal process)
(2) And the reason for the cessation of Ms RomaiiTs care of patients
in her home is irrelevant to the motion before the Court. (Mob Domination)
ANALYSIS OF OPINION BELOW:
Appendix _A___ Hon, O'Connor Decision and Order
The opinion from the highest Court of the State located on
Appendix

B

Reported at New York State Law Reporting Bureau
The opinion of the Appellate Division 3rd Department Court
Appears at Appendix

C

Reported the New York State Law Reporting Bureau.
Another opinion of Appellate Division on_D
The opinion of the State Supreme Court appears at Appendix__ E_
The date in which the highest Court decided the case is

November 16. 2017. The ruling was based on their rules “no
petition for hearing is allowed on absent of finality.
A timely filed petition for stay and judgment was denied by
the Appellate Division 3rd Department on January 18. 2018.
Motion to reconsideration

C

A Copy of that another decision appears on Appendix _D
A timely Writ of Certiorari filed within 90 days after the
denial of the Court of Appeals denial and it was seized by
United Parcel Services (UPS) et al. Enrute to U. S. Supreme
Court. Copy of the on Appendix _I
1
JURISDICTIONAL STATEMENT:
• An Issuance of the Courts criteria, an Extraordinary Writ authorized by 28 U.S. C.
2241,
•

The Supreme Court of the United States Shall have Appellate Jurisdiction
reviewing State Court decision, judgments or orders in which the
Constitutionality of the United States Constitution is in issue.

*

CONSTITUTIONAL AND STATUTORY PROVISION INVOLVED
1st ,4th 5th , 6th , 7th 8th and 14th Amendment of the U.S. Constitution

HABEAS CORPUS

Docket No

Habeas Corpus is another extraordinary remedy which is applied to all confinment, a
restraint in liberty and the disqualification of owning a business. State Court must have
mistakenly applied the law incorrectly. This restraint interferres with this petitioner
Constitutional rights where an order of Congress Pub law 112-63 Dee. 7, 2011 placed
petitioner as pertaining to Black law 6th edition page 868 into a “Kangroo Court” where
legal representation from qualified Attorney meant nothing. There was no probable cause
on the part of Theresa now, a nro se litigant to have been denied a meaningful
relationship in court. No reasonable fact finder would have found Theresa guilty of
seeking redress in State Supreme Court.. There was no offense committed. The
confirnment out side of the court house was against the liberty discussed in the 5th, 6th,
8th and 14th Amendment in the United States Constitution. It would be disasterous to
think that the Congress intent under Pub law 112-63 Dec. 7, 2011 to punish persons
like Theresa, to sentence persons like Theresa without a court of law. Sentence which is
in violation of the Constitution and laws of the United States. State Court was without
jurisdiction to impose the confirnment.The hiring of “big tech” to monitor every aspect of
Theresa's daily life to cause destruction and to make sure that those shackles stayed in
place. A “colorable” crime by State and its actors to have Theresa chain “hitching post”
style not been able to fend and defend herself and most of all to rise above it.
Self Deprivation, the shutting out of a business without just cause, the taunting of
Theresa's professional license, the eviction of Theresa from her own home and the forever
hunting for Theresa. In Hope v. Pelzer the use of hitching post as punishment violated
the 8th Amendment. Exhibit J

3

2006 and 2007 Theresa started her process navigating the State legal system to obtain
monies for care she provided to a patient by the name of M. Hart, under the Alternative
Homecare Company. Exhibit K Theresa and her paid Attorney was never given a day in
court, they were under the mercy of the State court Judges while Department of Social
Services supervised the court.
Collateral Attack On A Void Order:
Habeas Corpus meant a lot more to Theresa it is a direct attack on a void order.
An order in which the U.S. Supreme Court up held and the tortfeasors who created that
order remained silence. A promise of silence in Contract law and freedom of speech
defines various action that amount to obstruction of justice. See 83 CORNELL L. REV,
261, 307 n. 238 (1998). In United States v. Wood 6 F 3d 692 695 (10 cir. 1993) whosoever
impedes the due process of administration of justice shall be p unish.
An order which was void fom it conception and every court within its juisdiction shall
give that order the same effect as the original court. Exhibit L.
•

"Full Faith and Credit shall be given in each State to the public Acts. Records.
and judicial Proceedings of every other State. And the Congress may by general
Laws prescribe the manner in which such Acts. Records and Proceedings shall be
proved and the Effect thereof." (Art. 4. Sec. 1. of the Federal Constitution.)

•

On appeal to the United State Supreme Court it was held that "records and
judicial proceedings shall have such faith and credit given to them as they.
have bv law or usage in the courts of the State whence the said records are
or shall be taken, and the validity of the action having been determined in
Missouri that decision was conclusive on that question."
4

•

The duty to give fall force and effect to the Constitution of a State is as
obligatory as the similar duty in respect to judicial proceedings of that State. The
Court must inquire into the findings of the omission and promptly correct after
been called to the attention of the judge, attorney or party's attention. If by any
inuiry that the court determine that the rule has been violated the court may
impose sanction on the party that violated the rule of law.The party who violated
the rule of law must be held jointly responsible for the harm.

•

An order that made Theresa a target to the Government entity, and forever
impeedes her liberty. The fear and publicity of the fraud to the other side created
monsterous demonic behavior. A colorable crime of stalking.

In 2009 Theresa via a group of experience and expensive Attorney returned to
State Court on a different matter. Department of Social Services (DSS) had
ocustrated a fraud upon Theresa in which they revoked a patient by the name
of S. Forde documents and placed those fraudulent documents on Theresa's
name in an attempt to control that patient finances. DSS gave warning
that they were about to shut Theresa's to shut Theresa's place of business down
for a fraud that Theresa never committed.Exhibit M.
Theresa's lawyers having a preponderance of evidence indicating that the fraud
was done by DSS and not by Theresa. Exhibit N.
Unfortunately the lawyers was not given a platform in open court to clear
their client Theresa. Judge Kimberley O'Connor ordered the removal of
clients from Theresa's place of business and by giving DSS that opportunity to
close Theresa down. Theresa cared for S. Forde for 6 years and was told by DSS
5

that Ms Forde no longer has money to pay for her care. Theresa accepted
Ms.Forde Social Security of $900.00 per month for care, all her personal needs
and paid the deductible for Ms Forde medication. Exhibit 0_That still was not
enough for DSS, they removed Ms Forde from Alternative Family Type Home
Care CO, and placed her into the home of Blue Haven Family Tye Home, owned
by a Caucasian Travis Davis RN and gave Mr Davis $5000.00 to care for Ms
Forde per month, while Mr Davis worked outside of the home full time but
Ms Romain did not. Mr Davis and Ms Romain owned the same Type of
Family Type Home, licensed by the same department, the most troubling of all
they both held Registered Nurse and License Pratical Nursing Licenses from the
education Department of New York. The two professionals were differenciated
apart by the color of their skin. (Equal work for equal pay) Ms Forde health detoriately
quickly under the care of Mr Davis mother (a home maker) and she died suspeciously in
3 months in which Hon. Kimberly O'Connor, Michael Iappoce (DSS Commissioner),
Carol Pressman Esq (Mental Health Court Evaluator) and others hid the information
for about 6 months post burial from official Medical Examiner. The trio played
an intricate part in the dissolution of Theressa's business.
In 2009 Theresa's attorneys at Tarshis, Catania, Liberth, Mahon & Milligram
PLLC tried to prevent the harm that would befall their client Theresa. The law
firm informed Andrew M. Cuomo (Attorney General) now (Governor)who reported
that his office took no position, “No State interest”. At what point in time the
Governor realized that this was a case of interest to the State.
Exhibit P. This was a “Pun” (a play on words) Governor Cuomo allowed Theresa to
6

suffer such grave injury In 2007 Theresa informed the same Governor of fraud
to the elerly patient in her care and he wrote back instructed. Exhibit Q.
Theresa to write to the Appellate Department 3rd Division and report Exhibit R.
where did Theresa went wrong ending up at the door steps at the Supreme Court of
the United State seeking redress of grivenence. The instruction to the Appellate Court
exposed Theresa in more dangers, unfriendly term, several of the defendants work or had
worked in the past with the department. It was the Attorney General to handle the
situation. Imposition of Theesa's liberty and for ever obtaining a fair trial.
2015 when Theresa returned to State Supreme Court with a magitude of injury
the Governor with Erick Schneiderman (Former Attorney General) put a plan in
motion to defeat the due process of law.Exhibit S. Every possible scheme in motion
to defeat the meaningful relationship with the court, that inflammatory response
has caused an injustice to your petitioner a person of innocent and organic title.
never had Theresa encounter such hostility on d detection on such enormous level.
The ferociousness to hire other to fight Theresa and to report back to them every
aspect of Theresa's daily life, who she speak with, where she went, where she
resides etc, etc. Theresa's business was her pride and joy, revocation without a
hearing is wrong. Due process required an opportunity to be heard and an
assessment of how government action or inaction would deprivate an individual
rights. See section 2000 e 17 (section 718) No Government contract, or portion
thereof with any employer shall be denied, terminated or suspended of any
agency officer of the United States under any equal employment opportunity law
or order. See 2000 e -3 (section 704) (a) discrimination for making charges,
7

testifying assisting or participating in enforcement proceeding forbidden. See
Kwong Hai Chew v. Colding 344 U.S. 590 (1953) notice and a hearing is
paramount. Tortious interference with a business contract, breaches of implied
covenant and fair dealing causing injury to professional character and person
resulting in monetary deprivation, liberty and homelessness. (Failure to protect).
On 1/7/15 Theresa returned to State Supreme court as a pro se petitioner, egregious
conduct of State Court and its offers had a profound effect on petitioner career, the ability
to gainful employment. Documentation about fraud about Ms S. Forde will,
power of Attorney documents, Theresa the one to inherit Ms Forde
possession after her demise and an order of Judge Cahill requesting law
enforcement to assist DSS against Theresa was the straw that broke the “camel's
back”. Theresa was met with more forces of brutality, denial of a day in court to
vindicate those claims. This is when the “big wigs” have been called in, as illustrated
below:
“Andrew Cuomo (Governor), Eric Scheneiderman (Former Attorney General), Thomas
Breslin (Chief Adminstrative judge NY State), Hon. Michael Coccoma (Deputy
Administrative Judge), Hon. Justice Randall T. Eng( Justice of the 2nd Department),
Karen Peters(Presiding justice 3rd Appellate Department), Hon. Maria G. Rosa (Supreme
Court Justice ninth Jdidal District of Dutchess County), Clinton G. Johnson Esq (Ulster
Parcel Services (UPS), Google LLC, Microsoft Corporation,
County Attorney) United
Wells Fargo Bank, Wilmington Savings Fund Society, Straight Talk , John Doe and Jane
Doe et al.”
Theresa A Person In State Custody:
The statutory basis is 28 U.S.C. 2241 (1958). The federal statute habeas corpus
which extends beyond litigation involving State Prisoners., various forms
of detention. In Argersinger v. Hamlin 407 U.S. 25 requires State provision of
8

counsel whenever imprisonment is an authorized penalty. It is held the 6th and
14th Amendments that no indigent criminal defendant he sentenced to a term of
imprisonment unless the state has afforded him the right to assistance of
appointed counsel in his defense. Theresa went into State court as a plaintiff and
end up been a defendant in custody under confirnment in the community.
In Argersinger even “when the matter res nova the central premise that actual
imprisonment is a penalty different in kind from fines or the mere threat of
imprisonment — is eminently sound and warrants adoption of actual
imprisonment as the line defining the Constitution right to appointment of
counsel” See P. 440 U.S. 373.
The Power of The Supreme Court to Grant The Writ:
A civil case started in State Supreme Court, went to State Appellate Court and then to
Court of Appeals (highest court) in which it was dismissed on conflict of law . See
Exhibits. On 2/2017 a timely writ of Certiorari on its way to the Supreme Court of the
United States via United Parcel Service was hijacked in a conspiracy by the defendants,
now becomes jurisdictionally out of statute/time and not deserving for Certiorari review
and judgment. A civil action, an order otherwise appealable involving a controlling
question of law as to which there is substantial ground for difference of opinion and that
an immediate appeal from the order may materially advance the ultimate termination of
the litigation has been prolonged causing substancial financial, emotional distress and
harm. State courts are bound under the Constitution to follow “the Supreme law of the
land.” “And where such Federal Question arises in a State proceeding the opportunity is
9

presented to Theresa the petitioner to seek review of the State judgment in the Supreme
Court of the United States for the vindication of the 14th Amendment, rights gives the
impression of been complete and satisfactory.”
A collateral attack on a prior conviction which is unconstitutional in State Court.
Theresa is under statute of the Venue Clarification Act H.R. Rep. No. 112-10 at
7(2011) to seek redresss in State Court. Certiorari in Supreme Court of the United
States and as a state Prisioner to seek redress of state judgement in the Supreme Court.
(A final judgment of a State highest court be subject to review or reversal only by the
Supreme Court of the United States. “Neither the denial of the petition without more, nor
an order of transfer to a district Court under the authority of 28 U.S.C. 2241 (b), is an
adjudication on the merits and therefore does not preclude further application to another
Court for the relief sought.”
Extraordinary circumstances requires extraordinary reinforcement. Fraud upon the
Court must be by clear and convincing evidence Id citing Weese v. Schukman, 98 F. 3D
542, 552 (10 cir. 1996). Habeas Corpus may be granted only when the petition shows
substantiated clear and convincing evidence that the defendants acted with an intent to
deceive or defraud the court by means of a deliberately planned and carefully executed
scheme. See Lynn v. Robert case no. 03-3464 (D. Kan, Nov 1, 2005) affd case no 05
-3470(10th Cir. Dec 28, 2006) or the dismissal of this civil right action Lynn v. Anderson
-varella case 46 06-3172 (D. Kan, Jan 26, 2007) afFd case no 07-3046 (10 Cir. Dec 26,
2007). On 6/15/20 Hon. Maria G. Rosa refused to relieve petitioner from the void
judgment upon a showing of fraud upon the court and absent the due process of law. (5th,
10

6th and 14th Amendment of the united States Constitution). Judge Rosa indicate that the
time has passed. In Marquette Corn v. Priester 234 F. 799 (E.D.S.C. 1964) order voided
after 30 years after entry where the court expressly held that clause Rule 60 (b) (4)
carries no real time limit. Foundamental defect in proceedings will make the whole
proceedings a nullity. Fraud upon the court carries no expiration date.Ultra vires conduct
is conduct which have the “tendency” to prevent and obstruct the dischar ge of judicial
duty Id at 247 U.S. 419 U.S. 277 (1923), which has interrupted the court in the conduct of
its business. Id at 313 U.S. 52 Cf. See Toledo News Paper Co. v. United States Supra at
247 U.S. 422 Holmes J. Dissenting. The defendants conduct was unauthorized by
statute. In Exparte Grossman 267 U.S. 87 (1925) and Pendergast v. United States 317
U.S. 412 (1943), the Supreme court talks about the entitlement to the protection of
statute and procedural fairness. Claims of exceptional circumstances Rule 60 (b), (6). See
Houston v. Lack 487 U.S. 266,271-276 (1988). Rule 60 (b) (6) provides that a court may
relieve a party from a final judgement for “any other reason justifying relief from the
operation of the judgement. F.R.C.P Rule 60 (b) (6) gives the court a grand reservoir of
equitable power to do justice in a particular case. See Pierce v. Cook & Co. Inc 518 F. 2D
720, 722 (10th Cir. 1975) cert denied 423 U.S. 1079 (1976) quoting Radack v. Norwegian
American line Agency Inc. 318 F. 2D 538, 542 (2nd Cir. 1963). Theresa demonstrates (1)
extraordinary circumstances exist; (2) justice demands it; and (3) the movant has a
meritorious defense to the underlying claims. See Oxford Plastics v. Goodson, 74 N.C.
App. 256, 259— 60 (1985). The district Court may grant a motion there under only
“Extraordinary Circumstances” and only when such action is necessary to accomplish
11

justice.Theresa has been placed into extraordinary circumstances requiring
judgment to accomplish justice. See Pierce Klapprott v. United States 335 U.S.
601(1949), Ackerman v. United States 340 U.S. 193 (1950), Gonzalez v. Crosby 545 U.S.
524, 535 (2005), Lilijeberg 486 U.S. At 863 only applied in extraordinary circumstances.

State Exposes Theresa to Danger;
To demonstrate standing a plaintiff must show that (1) she suffered an injury in
fact that conrete, particlarized and actual and imminent. (2) the injury is fairly
traceable to the defendant challenged conduct and (3) the injury is likely to be redressed
by a favorable court decision. See Lujan v. Wild Life 504 U.S. 555, 560 (1992) must
support each element of the standing test with manner and degree of evidence in which
Theresa has done in her request of an extraordinary writ with a magitude of evidence.
The evidence put forth requires the court to balance the interest in finality of judgment
which “should not lightly be disturbed and the desire to achieve justice”. Exhibit must be
based on the notion to question the verdict. Claims that states that a court
misunderstood a party's position should be raised on appeals. Petitioner raised the issue
on appeals through the contumum of all state court and its procedure. The defendants
refused to take notice, they exercised an illegal interception, a conspiracy and stold the
petition on it way to the final abeter the Supreme Court of the United States. In
retaliation to the 4th and 8th Amendment of the Constitution. Search, seize and destroy
an attribute to cruel and inhumane treatment to a person belonging to a specific class.
Deliberate indifference to have treated Theresa that way. The appeals which was filed
12

on time to be delivered on time now become judicionally out of time, unqualifying for
justice. Defendants have a history of egregious behaviors extended to as recently as a
week ago when Microsoft crashed Theresa's computers, blocking and destroying
documents which were prepared for the United States Supreme Court in securing
Mandamus. Third party hired by state is state actors. There is a genuine question of
material fact as to the standing elements. See Delta Water agency v. United States 306 F.
3D 938, 947 (9th Cir. 2002). Court may compell only ministerial action 542 U.S. 55, 57 -58
(2004). A substantive due process claim when Government conduct “places a person in
peril, deliberate indifference to their safety. See Penilla v. City of Huntington Parkll5 F
3d 707, 709 (9th Cir. 1997). State actors create [d] and expose[d] Theresa to a danger in
which Theresa would not have otherwise faced. See Kennedy v. City of Ridgefield 439, F
3d 1055, 106 (9th Cir 2006).Before Theresa's demise under state law, Theresa had a
business, a home, a career and was in excellent ratings with creditors. A person looked
up too in the community. See Pauluk v. Savage 836 F. 3D 1117, 1125 (9th Cir 2016) “”in a
worst position”.
Theresa states actors recognize[d] the unreasonable risks to Theresa and
actually intende[dj to expose Theresa to such risk without regards to the consequences.
See Campbell v. Wash Dept of Soc. & Health Servs. 671 F. 3D 837, 846 (9th Cir. 2011).
Defendants acted deliberately, with [d]eliberate indifference, a culpable mental state.
See Pauluk 836 F. 3D at 1125. (quotation marks omitted).
Theresa has identify a final agency action subject to judicial review and judgment. Lujan
v. Na'l Wildlife Fed 497 U.S. 871, 882 (1990). Artl. S9. C2.1 Writ of Habeas Corpus and
13

the Suspension clause. Article 1, Section 9, Clause 2. The privilge of the Writ of Habeas
Corpus shall not be suspended, unless when in Cases of Rebellion or Invasion the Public
safety may require it. Liberty is in the contract the writ o f habeas corpus . Theresa is a
person in custody under a state judgment who seek a determination that post and
continuing custody violates the Constitution, laws , treaties of the United States. And
continued custody would result in irreparable harm. The defendants have sent death
wish on Theresa's 914 number, Theresa has move six times since the eviction due to the
interference of the defendants. Theresa does not have a drivers license, nether a car, no
internet services and cable. The defendants circle is too wide spread each circle has
touched Theresa's life. Theresa is a person under duress.
Respondents who have Petitioner under custody are as follows:
Andrew M. Cuomo {Governor N.Y. State), Letitia dames (Attorney General N. Y.)
(Individual and incapacity aE et al), Eric Schneiderman, Hon. Thomas A. Breslin, Hon.
Michael V. Coccoma, Hon. Karen K. Peters, Justice Randall T. Eng, Hon. Maria G. Rosa,
Clinton G. Johnson Esq. Hon. Kimberly O' Connor et al, Wells Fargo et al, Wilmington
Saving Fund Society et al, Rusk Walden & MartusceUo et al, United Parcel Services
(UPS) et al, Microsoft Corporation et al, Google LLC et al, Straight Talk et al.
Exhaustion of all Remedies:
The State required that petitioner exhaust all state available remedies in which
petitioner has done. The fact finding procedure employed by state court was not
adequate to afford a full and fair hearing,prejudicial to petitioner, state is resistive to
Federal claim. A full and fair fact hearing was unavaEable in which State consented to
Federal Court system. It waived the requirement expressly through counsel. In United
States v. Smith 331, U.S. 469, 475 (1947) “habeas corpus provides a remedy ....without
limit of time. In Felker v. Turpin 518 U.S. 651 (1996) the Supreme Court held that
14

officer would have known under the circumstances that the conduct was illegal.
See Hope v Pelzer 536, U.s. 730, 741 (2002).
Seeking Relief and Application in the United State Supreme Court:
Petitioner affirms that Congress has “ordain and establish” under Article 111
and Public Law 112-63 Dec 7, 2011 the type of Court available to hear petitioner's
cases. The Original Writ under the Constitution vested the jurisdictional power of the
United States Supreme Court in its appellate jurisdiction to hear petitioner's case
involving a lower Court's exercise of authority to the Supreme Court.
Petitioner has exhaust all State available remedies. State has consented to appellate
review and judgmentin Supreme Court by authorizing to the petition clause documented
by the Court of Appeals Decision and Order dated November sixteen 2017.
In Conclusion:
Petitioner Justification For Granting The writ of Habeas Corpus:
Exceptional Circumstances warranting the exercise of the Court's discretionaiy powers.
Adequate relief cannot be obtained in any other form or from any other court. Petitioner
has climbed the ladder throughout State Court system, all Courts think and acted alike,
a public display of discontent to the Constitution and Federal laws. A petitioner must
have a recourse to vindicate those wrongs. Reckless indifference to the Federally
protected rights of an aggrieved individual as defined by 42 U.S.C.§ 1981 A (b) (1). The
United States Supreme Court is the only available aide and comfort.
Causes of Action:
•

Discrimination
16

•

Tortious Interference with a Business Operation

•

Conspiracy to do harm

•

Failure to Protect

•

Wrongful Confimment

Wherefore petitioner prays that the Supreme Court grant relief in treble damages for
pain and suffering, mental anguish, discriminatory pratices, Tortious interference with
an establish business, emotional distress, rehabilitation from genuine injury, loss of
enjoyment of liberty, punitive damages, duress, harassment and confimment. The
acceptance of the writ and to award petitioner five billion dollars for every relief above
prayed for coupled with treble formula. Relief in the amount of One Hundred and and
Fifty billion Dollars.
Theresa Romain hereby declares and affirm under penalties of perjury that the
information provided is true and it formulate the basis for review
and judgment.

Respectfully Submitted,
Theresa S. Romain (Petitioner)
Date: 11/24/20
17

